No. 19-532
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
V.

STATE OF CALIFORNIA, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via first-class mail, postage prepaid, this 2nd
day of January 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain2962 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
January 2, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
January 2, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0532
USA
CALIFORNIA, ET AL.

AIMEE ALTHENA FEINBERG
CALIFORNIA DEPARTMENTY OF JUSTICE
1300 ISTREET
SACRAMENTO, CA 95814
916-210-6003
AIMEE.FEINBERG@DOJ.CA.GOV
CHRISTOPHER J. HAJEC
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVENUE, NW
SUITE 335
WASHINGTON, DC 20001
202-232-5590
CHAJEC@IRLI.ORG
CHRISTOPHER J. HAVJEC
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVE., N.W
SUITE 335
WASHINGTON, DC 20001
202-232-5590
CHAJEC@IRLI.ORG
KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROS WELL, GA 30075-7509
770-977-2131
KHERMANIN@SOUTHEASTERNLEGAL.ORG

KURT R. HILBERT
THE HILBERT LAW FIRM, LLC
205 NORCROSS ST.
ROS WELL , GA 30075
770-551-9310
KHILBERT@HILBERTLAW.COM
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-lA
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
KALLEY S. WILLIS
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVENUE NW
SUITE 335
WASHINGTON, DC 20001
202-232-5590
KWILLIS@IRLI.ORG

